 

IN THE
Supreme Court of the United States

ARTHUR GREGORY LANGE,

Petitioner,
v.

STATE OF CALIFORNIA,
Respondent.

On Petition for a Writ of Certiorari
to the Court of Appeal of the State of California,
First Appellate Division

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the foregoing
Petition for a Writ of Certiorari contains %___ words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on July 10, 2020.

Boe

Brian H. Fletcher
Counsel for Petitioner
